No. 20-1499

 

IN THE

Supreme Court of the United States

AMERICAN CIVIL LIBERTIES UNION, PETITIONER
Vv.

UNITED STATES OF AMERICA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES FOREIGN INTELLIGENCE SURVEILLANCE
COURT OF REVIEW

BRIEF FOR PROFESSOR STEPHEN I. VLADECK
AS AMICUS CURIAE IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 27, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
